<html>
<title> - INTERNET GOVERNANCE AFTER ICANN 53</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                   INTERNET GOVERNANCE AFTER ICANN 53

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 8, 2015

                               __________

                           Serial No. 114-62


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-750                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Missouri               JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          PETER WELCH, Vermont
STEVE SCALISE, Louisiana             JOHN A. YARMUTH, Kentucky
LEONARD LANCE, New Jersey            YVETTE D. CLARKE, New York
BRETT GUTHRIE, Kentucky              DAVID LOEBSACK, Iowa
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  DIANA DeGETTE, Colorado
ADAM KINZINGER, Illinois             G.K. BUTTERFIELD, North Carolina
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Missouri               JERRY McNERNEY, California
BILLY LONG, Missouri                 BEN RAY LUJAN, New Mexico
RENEE L. ELLMERS, North Carolina     FRANK PALLONE, Jr., New Jersey (ex 
CHRIS COLLINS, New York                  officio)
KEVIN CRAMER, North Dakota
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
  
  
  
  
  
  
  
  
  
  
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     3
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     4
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana, prepared statement...............................    61

                               Witnesses

Lawrence E. Strickling, Assistant Secretary for Communications 
  and Information, Administrator of the National 
  Telecommunications and Information Administration..............     7
    Prepared statement...........................................     9
Fadi Chehade, President and Chief Executive Officer, ICANN.......    20
    Prepared statement...........................................    22
 
                   INTERNET GOVERNANCE AFTER ICANN 53

                              ----------                              


                        WEDNESDAY, JULY 8, 2015

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:11 a.m., in 
room 2123, Rayburn House Office Building, Hon. Greg Walden 
(chairman of the subcommittee) presiding.
    Present: Representatives Walden, Latta, Barton, Shimkus, 
Blackburn, Lance, Guthrie, Olson, Kinzinger, Bilirakis, 
Johnson, Long, Ellmers, Collins, Cramer, Eshoo, Welch, Yarmuth, 
Clarke, Loebsack, Lujan, and Pallone (ex officio).
    Staff Present: Ray Baum, Senior Policy Advisor for 
Communications and Technology; Andy Duberstein, Deputy Press 
Secretary; Kelsey Guyselman, Counsel, Telecom; David Redl, 
Chief Counsel, Telecom; Charlotte Savercool, Legislative Clerk; 
Jeff Carroll, Minority Staff Director; David Goldman, Minority 
Chief Counsel, Communications and Technology; Tiffany 
Guarascio, Minority Deputy Staff Director and Chief Health 
Advisor; Lori Maarbjerg, Minority FCC Detailee; Margaret 
McCarthy, Minority Senior Professional Staff Member; Tim 
Robinson, Minority Chief Counsel; and Ryan Skukowski, Minority 
Policy Analyst.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. OK. We will call to order the subcommittee on 
Communications and Technology and want to extend a generous 
welcome to our two witnesses today. We are delighted to have 
you both back here and look forward to your testimony and 
answers to the questions that we all have.
    Last year, NTIA announced that it would work to transition 
the stewardship of the Internet Assigned Numbers Authority to 
the multistakeholder community, frankly, to a chorus of 
concern. There were concerns about whether or not this would 
open the door to the United Nations, some agency there, taking 
over where the U.S. Government leaves off; what of the checks 
and balances that NTIA places on ICANN; what is the 
multistakeholder community anyway. This was new territory for 
some of us. Large and fundamental questions loomed, and this 
subcommittee sought to exercise its role as NTIA's oversight 
authority and try and get some answers.
    A year later, I am proud of the work this subcommittee has 
done to ensure that the IANA transition preserves the Internet 
we know and makes concerns that if the United States government 
steps away from IANA that the system we leave in its place will 
not permit another government or intergovernmental group to 
fill that void.
    From the beginning, this subcommittee sought to strike the 
right balance between supporting the multistakeholder model of 
Internet governance while still protecting the invaluable tool 
of communications and commerce the Internet has become. And 
many of the questions we have raised are being incorporated 
into the work of the multistakeholder groups committed to 
working through this transition.
    Now, in the past, I have often made reference to both the 
contract between the United States and ICANN as well as the 
Affirmation of Commitments. I believe that both of these 
documents create valuable protections and rules that serve the 
governance of the Internet well.
    Among those crucial terms are the requirements that ICANN 
remain a nonprofit corporation headquartered in the United 
States; that ICANN maintain open and transparent processes, an 
ongoing review of ICANN's operations by the multistakeholder 
community.
    That is why I am pleased to see that the multistakeholder 
community has proposed to ensconce the terms of the Affirmation 
of Commitments in the ICANN bylaws themselves. These policies 
are critical to ensuring that ICANN remain a stable steward of 
IANA and must be a part of the successful transition.
    We also heard from the multistakeholder community over the 
last year, and, with respect to at least one of this 
transition, the world spoke with one voice: ICANN must be more 
accountable if it is to be trusted with the stewardship of 
IANA.
    Over the last year, a group of dedicated volunteers have 
been working to come up with a structure for ICANN that ensures 
that it is the Internet community, not any one group of 
players, that will guide the future of the Internet. I couldn't 
be happier to see that the issues raised by the subcommittee 
have been integral to the work of this group.
    The community must be able to hold the ICANN board 
accountable, and that means the ability to recall those board 
members that are no longer representing their community. It 
also means that once this new system is in place it would be 
resistant to capture. Fundamental bylaws that require a 
supermajority to change, actionable mechanisms that empower the 
community, independent review of board decisions, and the 
stress tests to ensure the system will work as planned are 
essential elements of an accountable ICANN. We have been 
talking about these issues for the past year and will continue 
to do our jobs to ensure that if NTIA is to agree to a 
transition proposal that these changes are fully implemented up 
front.
    Now, last month, the House passed bipartisan legislation 
that originated in this subcommittee called the DOTCOM Act. The 
DOTCOM Act was developed through months of hearings, 
discussions, and bipartisan negotiations. And, throughout this 
process, we made a concerted effort to recognize the impact of 
our actions on the international process. But we also felt it 
would be irresponsible to ignore the very real risks associated 
with the relinquishment of the U.S. role in Internet 
governance, no matter how small.
    The measured approach of the DOTCOM Act properly balances 
the NTIA's role as the U.S. Government participant in the 
multistakeholder community with the U.S. Congress' role as 
NTIA's oversight authority. Our hope is that the United States 
Senate will pass this legislation soon and provide the Congress 
with another tool to ensure a transition that will meet our 
Nation's and the world's needs.
    Finally, we have all said all along that this transition is 
far too important to be rushed by an artificial deadline. I was 
pleased to see, Assistant Secretary Strickling, your testimony 
where you state that the transition timeline is flexible and 
will extend beyond the September 2015 expiration of the ICANN 
contract. Now, extending the contract will ensure the 
multistakeholder community and the U.S. Government through NTIA 
and the Congress are driven by a full and robust vetting of the 
transition proposal rather than by a calendar.
    Moreover, extending the contract is consistent with the 
timeline for the work that is taking place on ICANN 
accountability reforms. Just last week, the CCWG has indicated 
that the Workstream 1 reforms required for the IANA transition 
may not be implemented until July of 2016.
    There are still many unknowns in this process, and much 
remains to be decided before a transition can take place. For 
example, how will the transition deal with the dot-mil and dot-
gov top-level domains? And what role will the Government 
Advisory Committee have in the new ICANN process? My hope is 
that this committee's oversight will continue to strengthen the 
process, raise important questions, and improve the outcome.
    So I thank our witnesses for testifying today and sharing 
their insight into the transition process and answering some of 
the many questions that remain as we move forward.
    I see I have used up the balance of my time, with apologies 
to my vice chair, whom I usually try and leave time for. I now 
recognize the gentlelady from California, Ms. Eshoo, for an 
opening statement.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Last year, NTIA announced that it would work to transition 
the stewardship of the Internet Assigned Numbers Authority to 
the multi-stakeholder community to a chorus of concern. Will 
this open the door to a U.N. agency taking over where the U.S. 
government leaves off? What of the checks and balances that 
NTIA places on ICANN? What is the multi-stakeholder community, 
anyway? Large and fundamental questions loomed and this 
subcommittee sought to exercise its role as NTIA's oversight 
authority and get answers.
    A year later I am proud of the work of this subcommittee to 
ensure that the IANA transition preserves the Internet we know 
and makes certain that if the U.S. government steps away from 
IANA that the system we leave in its place won't permit another 
government or intergovernmental group to fill the void.
    From the beginning, this subcommittee sought to strike the 
right balance between supporting the multistakeholder model of 
Internet governance, while still protecting the invaluable tool 
of communications and commerce the Internet has become. And 
many of the questions we have raised are being incorporated 
into the work of the multi-stakeholder groups committed to 
working through this transition.
    In the past, I've often made reference to both the contract 
between the U.S. and ICANN as well as the Affirmation of 
Commitments. I believe that both of these documents create 
valuable protections and rules that serve the governance of the 
Internet well. Among those crucial terms are the requirements 
that ICANN remain a non-profit corporation headquartered in the 
United States; that ICANN maintain open and transparent 
processes; and, ongoing review of ICANN's operations by the 
multi-stakeholder community. That's why I am pleased to see 
that that multi-stakeholder community has proposed to ensconce 
the terms of the Affirmation of Commitments in the ICANN 
bylaws, themselves. These policies are critical to ensuring 
that ICANN remain a stable steward of IANA and must be a part 
of a successful transition.
    We also heard from the multi-stakeholder community over the 
last year. And with respect to at least one part of this 
transition the world spoke with one voice: ICANN must be more 
accountable if it is to be trusted with the stewardship of 
IANA. Over the last year, a group of dedicated volunteers have 
been working to come up with a structure for ICANN that ensures 
that it is the Internet community, not any one group of 
players, that will guide the future of the Internet.
    I couldn't be happier to see that the issues raised by the 
subcommittee have been an integral part of the work of this 
group. The community must be able to hold the ICANN board 
accountable, and that means the ability to recall those board 
members that are no longer representing their community. It 
also means that once this new system is in place, that it be 
resistant to capture. Fundamental bylaws that require a 
supermajority to change, actionable mechanisms that empower the 
community, independent review of board decisions, and the 
stress tests to ensure that the system will work as planned are 
essential elements of an accountable ICANN. We have been 
talking about these issues for the past year and we will 
continue to do our jobs to ensure that if NTIA is to agree to a 
transition proposal, that these changes are fully implemented 
up-front.
    Last month the House acted on a bipartisan basis to pass 
this subcommittee's DOTCOM Act. The DOTCOM Act was developed 
through months of hearings, discussions, and bipartisan 
negotiations. Throughout this process, we made a concerted 
effort to recognize the impact of our actions on the 
international process, but we also felt it would be 
irresponsible to ignore the very real risks associated with a 
relinquishment of the United States' role in Internet 
governance, no matter how small. The measured approach of the 
DOTCOM Act properly balances NTIA's role as the U.S. government 
participant in the multi-stakeholder community with the U.S. 
Congress' role as NTIA's oversight authority. Our hope is that 
the Senate will quickly pass this legislation and provide 
Congress with another tool to ensure a transition will meet our 
nation's--and the world's--needs.
    Finally, we've said all along that this transition is far 
too important to be rushed by an artificial deadline. I was 
pleased to see Assistant Secretary Strickling's testimony 
states that the transition timeline is flexible, and will 
extend beyond the September 2015 expiration of the ICANN 
contract. Extending the contract will ensure that the multi-
stakeholder community and the U.S. Government through NTIA and 
Congress are driven by a full and robust vetting of the 
transition proposal, rather than the calendar. Moreover, 
extending the contract is consistent with the timeline for the 
work that is taking place on ICANN accountability reforms. Just 
last week the Cross-Community Working Group-Accountability has 
indicated that the ``Work Stream 1'' reforms required for the 
IANA transition may not be implemented until July 2016.
    There are still many unknowns in this process, and much 
remains to be decided before a transition can take place. For 
example, how will the transition deal with the .mil and .gov 
top-level domains and what role will the Government Advisory 
Committee have in the new ICANN? My hope is that this 
committee's oversight will continue to strengthen the process, 
raise important questions, and improve the outcome. I thank 
both of our witnesses for testifying today and sharing their 
insight into the transition process, and answering some of the 
many questions that remain as we move forward.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman.
    Two weeks ago, ICANN wrapped up its 53rd meeting in Buenos 
Aires, Argentina, and, as expected, the Internet Assigned 
Numbers Authority transition dominated the discussion.
    For a report on this meeting and an update on the steps 
being taken to ensure transparency, accountability, and 
adherence to the principles NTIA laid out last year, today we 
welcome back to the subcommittee ICANN CEO Fadi Chehade and 
NTIA Administrator Larry Strickling.
    So welcome, and we look forward to hearing from you.
    In the lead-up to ICANN 53, the House passed by an 
overwhelming margin H.R. 805, the DOTCOM Act. The bill 
reinforces the view of Congress that the IANA transition must 
support and enhance the multistakeholder model of Internet 
governance; maintain the security, stability, and resiliency of 
the Internet Domain Name System; and not replace the role of 
the NTIA with a government-led or intergovernmental 
organization solution.
    Accountability is an essential component of the transition. 
I am encouraged by reports that the Cross-Community Working 
Group on Enhancing ICANN Accountability is focusing on 
accountability measures that are critical to the success of the 
IANA transition.
    In the long term, I continue to believe that a governance 
structure within ICANN that separates policymaking from the 
implementation of policy decisions, as well as from the 
adjudication of disputes, is needed to enhance accountability 
on all ICANN-related matters and ensure consensus-driven 
decisions.
    In the months since the transition was first announced, 263 
meetings have taken place around the world. For people that 
attend a lot of meetings, that is a lot of meetings. This 
equates to over 13,000 working hours focused on the IANA 
transition.
    We are at a critical juncture, with less than 4 months 
until ICANN's next meeting in Dublin. I commend the work of the 
multistakeholder community, as well as Fadi Chehade, who has 
announced his plans to step down from ICANN in March of next 
year.
    I look forward to the testimony of our two witnesses, whom 
we have heard from on many an occasion. A lot of work has been 
put into this by both of you. We appreciate it. And I thank you 
for your commitment to a successful transition of the IANA 
functions to the multistakeholder community.
    I have 2 minutes and 11 seconds left. I would be happy to 
yield to any one of my colleagues if they would like to use the 
time.
    Passing?
    I yield back. Thank you, Mr. Chairman.
    Mr. Walden. The gentlelady yields back.
    The chair now recognizes the gentlewoman from Tennessee, 
Mrs. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    I appreciate that our witnesses are giving us the time 
today and are putting attention on our concerns with this 
transition and with the multistakeholder model of Internet 
governance, which--in order for that to work, we have to have 
transparency, credibility, accountability, and we are concerned 
about where we stand on those measures with ICANN.
    That is why there is growing consensus that the IANA 
transition isn't quite ready for prime time. One thing in 
particular that concerns me is that ICANN, the registries and 
the registrars, are not even abiding by sections 3.7, 3.18, and 
3(a) in their own Public Interest Commitments and the Registrar 
Accreditation Agreement. So I will want to visit that with the 
two of you.
    These contractual provisions created through the 
multistakeholder process require ICANN, the registries and the 
registrars, to prohibit domain name holders from engaging in 
illegal activity. ICANN says it should not be the content 
police, and I agree with that, but that is not the issue here. 
Before signing off on the transition, we must make sure that 
ICANN is enforcing provisions in its own contracts and not 
simply burying its head in the sand to skirt responsibility.
    And with that, Mr. Chairman, I will yield to the vice 
chairman of the subcommittee the balance of my time.
    Mr. Latta. I thank the gentlelady for yielding.
    And, also, I would like to thank our witnesses for being 
with us today on this very important subject.
    And as I could reiterate, as the chairman stated, that last 
month this committee did report out to the House floor and the 
House then passed Mr. Shimkus' DOTCOM Act to ensure proper 
oversight of the National Telecommunications and Information 
Administration and prepare for the transition of the U.S. 
Government's role in the Internet's functions to a global 
multistakeholder community.
    Now that it has been passed, we must move forward on to the 
next steps of the transition process. I am interested in CCWG's 
consolidated transition proposal, and I encourage the group to 
incorporate public recommendations that may help to ensure 
NTIA's criteria are met.
    I also look forward to reviewing the final accountability 
plan, as protecting ICANN from undue influence from any 
government or group of stakeholders is of utmost importance. As 
these plans progress, we must maintain the high priority of 
safeguarding our national security interests and allowing 
citizens to continue to navigate an open and free Internet.
    And, with that, Mr. Chairman, I yield back the remainder of 
my time.
    Mr. Walden. I was going to recognize the full ranking 
member, Mr. Pallone, but I see he has left. Anyone on the 
Democratic side seeking time?
    If not, then I think we are done on our side, as well. So 
all time is used up, and we can get right to our very talented 
and capable witnesses.
    First up, the Assistant Secretary for Communications and 
Information and Administrator of the National 
Telecommunications and Information Administration, Mr. Larry 
Strickling.
    That is a lot to fit on a card, I have to think. We are 
delighted to have you back before the committee, Mr. 
Strickling. Thanks for being here. We look forward to your 
testimony.

 STATEMENTS OF LAWRENCE E. STRICKLING, ASSISTANT SECRETARY FOR 
 COMMUNICATIONS AND INFORMATION, ADMINISTRATOR OF THE NATIONAL 
  TELECOMMUNICATIONS AND INFORMATION ADMINISTRATION; AND FADI 
     CHEHADE, PRESIDENT AND CHIEF EXECUTIVE OFFICER, ICANN

              STATEMENT OF LAWRENCE E. STRICKLING

    Mr. Strickling. Well, thank you, Chairman Walden and 
Ranking Member Eshoo. I indeed welcome the opportunity to come 
back before you today with ICANN CEO Fadi Chehade to update you 
on the IANA stewardship transition.
    In March of 2014, NTIA announced its intent to complete the 
privatization of the Internet Domain Name System as promised in 
1998. This long-planned step is critical to ensuring that the 
Internet remains an engine for economic growth, innovation, and 
free speech.
    Completing the transition will show the world that we fully 
embrace the multistakeholder approach to Internet governance, 
policymaking, and standards development. And history has 
demonstrated that this model is the best mechanism for 
maintaining an open, resilient, and secure Internet.
    Both Republican and Democratic administrations have 
consistently supported this model. Members of Congress on both 
sides of the aisle have come together on more than one occasion 
to express support for the multistakeholder approach. And, most 
recently, this committee led the way, with its bipartisan 
efforts on Representative Shimkus' DOTCOM Act.
    And so, in addition to Chairman Walden and Ranking Member 
Eshoo, I want to thank Chairman Upton, Representative Shimkus, 
Pallone, committee members, and all your staffs for your work 
to ensure that the transition of our role with respect to the 
Internet Domain Name System progresses in a transparent, 
responsible, and timely manner.
    So where do things stand today with the transition? Based 
on my firsthand observations last month at ICANN's meeting in 
Buenos Aires, I am confident that the community is proceeding 
with great energy and enthusiasm to finalize the plan for the 
transition.
    The global Internet community has been working nearly 
nonstop to complete consensus proposals related to the IANA 
functions and has engaged in a vigorous debate on the best ways 
to strengthen ICANN's accountability. The three stakeholder 
groups addressing each of the IANA functions have now completed 
their work.
    The IANA Stewardship Transition Coordination Group is now 
working to combine these proposals into a consolidated proposal 
on which they will seek public commitment. The ICG's role is 
crucial because it must build a public record on how the 
consolidated plan meets NTIA's criteria.
    In May, the Accountability Working Group sought comment on 
its proposals to strengthen ICANN's accountability. During the 
ICANN meeting, the broader ICANN community provided feedback to 
the working group that will serve as a basis for more 
discussions next week in Paris. Afterwards, the working group 
plans to release an updated accountability plan for public 
comment.
    At the recent ICANN meeting, I took the opportunity to 
remind the community to focus on the NTIA criteria and deliver 
a plan that clearly and convincingly meets those conditions. I 
urged stakeholders to develop a strong record in support of the 
plan, answer questions anyone might have about the plan and not 
leave them for future discussion and decision. On our part, I 
want to assure you that we will carefully review and assess the 
community's proposal to ensure that it preserves and protects 
the Internet and meets the specific criteria I have previously 
outlined.
    I want to touch briefly on the timetable for completing the 
transition and its implications for the current IANA functions 
contract.
    The contract expires on September 30, but it is clear we 
need to extend the contract to give the multistakeholder 
community the time it needs to finalize its proposal. We need 
to build in time for NTIA as well as Congress to review and 
evaluate the plan. And we also need to factor in time to 
implement the plan, assuming it is approved.
    Several weeks ago, I asked the leadership of the 
stakeholder working groups to provide a status report, 
including an estimate of how long it will take to finalize the 
plan and implement it once it is approved. We just received 
that input, and I will soon be meeting with ICANN to discuss an 
extension that considers the community's input. But it is clear 
we will need to extend this contract at least through next 
July, and we will inform this subcommittee well in advance of 
the September 30 expiration date of the length of the extension 
that we work out with ICANN.
    In closing, I want to assure you that throughout this 
process and beyond we will remain strong and vigorous advocates 
for Internet freedom, growth, and innovation. We will continue 
to play a major role on ICANN's Government Advisory Committee, 
where governments develop consensus advice to ICANN on public 
policy matters. We will work with other stakeholders to ensure 
that ICANN enforces its own rules. And, moreover, we will 
continue our efforts to enhance the accountability and 
transparency of ICANN, as we have the last 5 years, through our 
participation in ICANN's accountability and transparency review 
teams.
    I am confident that when the transition is completed we 
will have a stronger ICANN and a more secure Internet that will 
continue to grow and thrive throughout the world.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Mr. Strickling follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
        
    Mr. Walden. Thank you, Mr. Strickling. We will look forward 
to that part, as well.
    We will go now to Mr. Fadi Chehade, president and CEO of 
ICANN.
    We are delighted to have you back before our subcommittee, 
and we look forward to your testimony.

                   STATEMENT OF FADI CHEHADE

    Mr. Chehade. Thank you, Mr. Chairman. Thank you for 
inviting us back. Good to meet you again, Ranking Member Eshoo, 
all members of this committee.
    I want to start by thanking you, because if we look at 
where we were a year ago in this room and where we are today, 
we are in a different place. Your work, your confidence in us, 
but also the commitment you made through your staffs to get 
engaged with us and our community is paying off. This is 
government that is working. We thank you for that.
    Your interest is very important. Your leadership has been 
even more important in showing us the way, in making sure that 
we do this right. So when we were rushed and you were asking 
for oversight, I think you did the right thing by asking us to 
do the right things and to slow down and to get this done 
right.
    So we thank you for that; the world thanks you for that. 
Because if it weren't for this commitment, we would not be 
where we are today. The multistakeholder model is working.
    This brings me to some of the statistics Ms. Eshoo 
mentioned and others mentioned. The amount of work that has 
gone into this process is remarkable. It shows that the 
multistakeholder model works. It is actually, itself, just the 
transition process, is a triumph of this model, because people 
came together and put amazing hours--you mentioned nearly 
14,000 volunteer hours in the last year--to get this where it 
is today.
    So we continue steadfast to get this done. And I agree with 
you, we are not done. We still have work to do. The 
accountability area still needs to be looked at deeply. I am 
committed to that. Our board is committed to that. Our 
community is committed to that. I assure you we will not move 
forward till the many things that you mentioned also, Mr. 
Chairman, in your talk are in place so we assure everyone that 
we are not leaving ICANN with any loopholes of accountability. 
It has to be done.
    I also want to recognize to all of you that the community, 
when we say the word ``community''--you asked me before, Mr. 
Shimkus, what is the community. The community is not just the 
ICANN community. It is also our sister organizations who have 
been immensely involved in this process. So I mention here and 
I recognize the IETF, the Internet Society, the Regional 
Internet Registries. All of them are independent organizations 
that work with us and together with us to get this done. We are 
linked by mutual commitments and by common principles--
principles of an open, secure Internet for everyone. And to 
those, we really salute today the efforts they put, and we look 
forward to them finishing their work.
    Finally, I would just like to say I believe this process 
will leave the Internet more secure, not less secure. This 
process will leave ICANN, as Mr. Strickling said, stronger, 
more accountable. And I think that is what we want out of any 
process, not to take us backwards but to take us forwards.
    I want to say something about what we have done here that 
is distinctly wearing my American citizen hat. The 
multistakeholder model was shepherded and promoted to the world 
by us. And, thanks to the great work we are doing here and to 
the optics of how well we have together managed this 
transition, that model is now a very attractive model to many 
people in the world who a year ago were asking the same 
questions. We should be very proud of the moment we are in 
here, to have nation after nation and stakeholder after 
stakeholder now come around and say the multistakeholder model 
is the right model. And that we celebrate together today.
    Thank you.
    [The prepared statement of Mr. Chehade follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
      
    Mr. Walden. Mr. Chehade, thank you. And, again, thanks for 
your many years of service in heading up ICANN and for your 
continued efforts. We wish you well in your eventual 
retirement, but we may see you before that.
    I will start off on the questioning.
    Mr. Strickling, currently, ICANN's Affirmation of 
Commitments requires ICANN to remain domiciled in the United 
States, a distinction that is legally very significant. Will 
this continue after the transition? And what reassurances do we 
have that this will be the case in the future?
    Mr. Strickling. Yes, sir.
    So, yes, it is a requirement in the Affirmation of 
Commitments, and, as of right now, there is no plan for the 
Affirmation of Commitments to go away. Now, it may well be 
proposed by the Accountability Working Group to incorporate the 
provisions of the affirmation into the bylaws, and that is not 
anything we would object to as long as it is clear that those 
conditions will continue on. So they will remain in force, 
either through the continuation of the affirmation or by their 
being incorporated in the bylaws.
    It is today in the bylaws that ICANN will remain in 
California, and, of course, their articles of incorporation, as 
currently established, require that it be a California 
corporation.
    So there has been no serious proposal made in the course of 
these discussions to move the location of ICANN outside of the 
United States. Frankly, if it were being proposed, I don't 
think that such a proposal would satisfy our criteria, 
specifically the one that requires that security and stability 
be maintained. So we expect that this will continue on into the 
future.
    Mr. Walden. Thank you.
    Mr. Chehade, what has been the response of other nations to 
the inclusion of this provision in the fundamental bylaws?
    Mr. Chehade. I must say I am surprised and pleased that 
there is general consensus, and we are not hearing strong 
voices that propose something different.
    As I said before here in this room, we stand by the 
commitment that ICANN, as in the Affirmation of Commitments, 
shall stay in the United States.
    Mr. Walden. And if that provision is in the fundamental 
bylaws, what kind of a vote would be required to change the 
fundamental bylaws down the road?
    Mr. Chehade. This is not set yet. The community is 
discussing this now. But I believe the discussion centers 
around a two-thirds majority vote.
    Mr. Walden. All right.
    Mr. Strickling, you said in your testimony it is clear the 
ICANN contract will be extend beyond 2015, and I think you 
indicated maybe through next July. Is that kind of the range 
that you believe will be the case?
    Mr. Strickling. Yes. We had asked the community, as I said 
in my opening remarks, to give us their best guess, because 
before the contract can expire, we both have to have a 
proposal, we have to review it and approve it, you have to be 
satisfied with it, assuming DOTCOM is enacted, and it has to be 
implemented. And so we asked the community for their best guess 
as to when that would take place.
    The responses we have gotten back from the two working 
groups is July at the earliest, possibly going till September. 
We want to apply our own analysis to it; we want to discuss it 
with ICANN. But it is clear we need to go out at least till 
next July.
    Mr. Walden. And I am assuming, even if DOTCOM doesn't 
become law, you will still give us an opportunity for review 
here in the Congress.
    Mr. Strickling. Yes.
    Mr. Walden. Thank you.
    And can you explain, Mr. Strickling, the timeline NTIA will 
follow once that proposal is received?
    Mr. Strickling. So, under the current timeline, the hope 
and expectation is that a final proposal might be delivered to 
us in early November. We are expecting that our evaluation, 
which we will conduct in as public and transparent a manner as 
we can, will take some 60 to 90 days, depending on the 
calendar.
    We are still working through what the elements of that 
review will be. We will take guidance from the GAO. We 
understand that the report that they are completing may have 
some guidance on that. We will look into that before we settle 
on any final plan. But what I can tell you is it will be open 
and transparent.
    Inside the administration, we are already meeting on an 
interagency basis to make sure we have all of the concerns of 
other agencies with equities in this, understand what their 
issues will be, making sure that those will be factored into 
the process.
    The record we get from the community will be very important 
because, through that, we will have their best assessment as to 
how their plan meets our criteria. Out of that, we will have an 
opportunity to evaluate the stress tests that they have 
performed. We are also looking to make sure that they are not 
leaving open issues that could undermine the plan if they are 
not settled now. We want to understand that they have looked at 
alternatives and have made a good choice based on the 
alternatives available to them. We are, frankly, looking to see 
that they applied the level of rigor and analysis that anyone 
would expect from an undertaking of this magnitude.
    Mr. Walden. Thank you.
    So, to sum up, just so I understand, the contract will be 
extended likely through July of next year. It is highly likely 
that ICANN will remain incorporated within California. It is 
probably in that same category that that requirement will be in 
the fundamental bylaws, which would be very difficult to change 
forth post. And, Mr. Strickling, you have committed that 
Congress, irrespective of the passage of DOTCOM, will have 
adequate time to review this proposal just to continue the 
discussion.
    Is that a yes? Did I----
    Mr. Strickling. That is a yes.
    Mr. Walden [continuing]. Get all that right?
    Mr. Strickling. Yes.
    Mr. Walden. All right. Perfect.
    Then, with that, my time has expired. I will turn to my 
friend from California, Ms. Eshoo, for questions.
    Ms. Eshoo. Thank you, Mr. Chairman.
    Now, mention was made of a two-thirds vote required to 
change what is in the bylaws. What is the universe of votes? 
How many voters are there?
    Mr. Chehade. ICANN has 16 board members, 1-6.
    Ms. Eshoo. Sixteen. So it would be two-thirds of that. And 
that is not going to change, a two-thirds requirement?
    Mr. Chehade. So, as I mentioned, the discussion of how to 
safeguard the fundamental bylaws is happening as we speak. It 
is part of the accountability group's decision. So no final 
decision has been made on this, but I shared what we are 
hearing from them at the moment.
    The idea here, Ms. Eshoo, is to make sure that these 
fundamental bylaws are safeguarded. And the test to change them 
has to be extremely----
    Ms. Eshoo. I understand that. I was just curious as to what 
the universe of voters are.
    Mr. Chehade. Sixteen board members.
    Ms. Eshoo. OK.
    And can you commit that ICANN will remain in California?
    Mr. Chehade. Yes. I think what I committed before, as I 
said in this committee, that the Affirmations of Commitment, a 
very important document for us, includes this commitment, our 
bylaws include that commitment, and that we stand by this.
    Ms. Eshoo. Yes. Well, I think that it is even more than the 
physical presence in California, which I would happily vouch 
for--it is a great place to be--but that the stakeholder 
community's work is really predicated on California law. So I 
want to nail that down.
    Over to Larry Strickling. From your perspective, what is 
the top issue that still needs to be addressed before NTIA can 
sign off on a transition proposal?
    Mr. Strickling. We need to see the proposal, number one. 
And we will assess it based on the comprehensiveness of the 
complete proposal that we get.
    So I would say first and foremost in my mind is to keep the 
community focused on our criteria and making sure that they 
deliver a plan to us that has been fully vetted and has reached 
a strong support of the community that it satisfies our 
criteria. So that is first and foremost our concern.
    Ms. Eshoo. Well, of course it would be. But do you have any 
sensibilities about potential sticking points, or you just 
don't want to go there now? Not to be discussed today?
    Mr. Strickling. I have tried not to put my finger on the 
scale of any particular outcome. I think that is inappropriate 
when we are relying on the multistakeholder model.
    What I have reminded them of is, focus on the criteria, be 
thorough, consider alternatives, don't leave questions 
unanswered--the types of things you would expect out of any 
planning process.
    Ms. Eshoo. Since NTIA's announcement last March, have you 
seen greater international support for the multistakeholder 
model?
    Mr. Strickling. Yes. There is no question about that. I 
mean, in the last 2 years, we have seen growing support for the 
model worldwide.
    I think the evidence for that starts with the NETmundial 
conference in Brazil in April of 2014, just a month after we 
made our announcement. That carries through to the ITU 
Plenipotentiary Conference in Korea, where, again, any attempt 
to bring the Internet Domain Name System within the 
jurisdiction of the ITU was rebuffed.
    As we talk to people, particularly in the developing world, 
we see much more support for the model than we saw even 3 years 
ago.
    Ms. Eshoo. Well, I think that that is very important.
    I don't think I have any other questions, but I want to 
thank you for the work that you both have done to help bring us 
to this point. And if it takes a year from now to get to where 
we need to be, I am comfortable with that. I would rather have 
a solid agreement that reflects the confidence of the Congress 
in this and that that would be the case, rather than us 
sticking with some kind of time frame that diminishes what the 
outcome is. That just doesn't make sense. So I thank you for 
the work that you have put in.
    And I thank the chairman for being really insistent on 
this, as well. I can see the light, and it is important for the 
future of the Internet.
    Thank you very much.
    Mr. Walden. I thank the gentlelady. And she yields back the 
balance of her time.
    I recognize the gentlelady from Tennessee, Mrs. Blackburn, 
for 5 minutes.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    And, as I said in my opening, I want to talk with you all 
about the enforcements and 3.7, 3.18, 3(a).
    I am very concerned about Allen Grogan's blog post. I know 
you all have seen it. It was the June 12 blog post, and it is 
titled ``ICANN is not the Internet Content Police.''
    As I said, I don't think you need to be the content police, 
but you have things that, contractually, you are to be abiding 
by. And you have to be looking at these prohibitions on domain 
names for illegal activity such as fraud and IP theft, things 
of that nature. That is essential to credibility and to 
accountability.
    So, Mr. Strickling, I will come to you first. What 
assurances can you provide that there will be adequate 
enforcement of these contractual provisions?
    Mr. Strickling. Well, first, let me state that we are 
concerned about ICANN enforcing its contracts, and, in 
correspondence and in our work in the Governmental Advisory 
Committee, the United States Government has stood up and said 
ICANN needs to be doing more in this area.
    It is not directly an issue related to the IANA 
transition----
    Mrs. Blackburn. OK. Let me just jump in right there, then, 
and ask you: Has NTIA had conversations with ICANN about their 
responsibilities? And what has been their response?
    Mr. Strickling. We have had conversations and 
correspondence with them over the last several years about the 
need to improve in this area. And, in all cases, ICANN has 
indicated a responsiveness to improve.
    It is a complicated area because when you are dealing with 
registries and registrars around the world, all subject to 
different local laws, the question of what is illegal in one 
jurisdiction may be different in another. And this is an area 
in which there needs to be a tremendous amount of work, not 
just at ICANN but I think throughout the Internet community, to 
find a good resolution of it.
    Mrs. Blackburn. OK. Do you agree with Mr. Grogan's 
statement in his June 12 blog post or not? Yes or no?
    Mr. Strickling. Which statement is that?
    Mrs. Blackburn. The opening statement, which I have now 
read twice, that ICANN is not the Internet content police.
    Mr. Strickling. Well, understand, Mr. Grogan doesn't report 
to me or work for me. But I do agree with the idea that we do 
not want ICANN becoming a regulator of speech in the world. 
Yes.
    Mrs. Blackburn. I agree with that.
    OK, Mr. Chehade, over to you now on this one. Do you think 
that copyright infringement is speech?
    Mr. Chehade. I am not an expert in this area, but I will 
tell you that the issue you are bringing up is very important. 
I hold many patents, and I have many trademarks. I did business 
for many years, and I fully appreciate this issue. But it is a 
complicated issue. It is far more complicated than thinking 
that the registrars and the registries and ICANN alone can 
solve it. There----
    Mrs. Blackburn. OK. Let me ask you this, then. What about 
deceptive trade practices? Is that speech?
    Mr. Chehade. Again, neither ICANN nor I are experts on 
these issues. We have contracts, and we enforce the contracts. 
And, just to be clear, in 2009, when these started becoming 
issues, we had six people in compliance. We have 24 today.
    Mrs. Blackburn. OK. Well, let me ask you this. Let's say 
that--and these are issues of conduct. And I want to know what 
you are doing. If you have acknowledged NTIA, and they have had 
conversations, you have given responses----
    Mr. Chehade. Yes.
    Mrs. Blackburn [continuing]. Tell me what you are 
specifically doing to drill down on this and to be sure that 
there is transparency and there is compliance in this area.
    Mr. Chehade. Absolutely. So, a couple of things.
    First, we are committed and we are enforcing the processes 
that the multistakeholder community has asked us in the 
contracts to do. We are doing that. And we are doing that with 
a large team of compliance folks. We have now over 40,000 
complaints that are being processed in less than 10 days, all 
of them. So there is a tremendous amount of work going there.
    The second thing we are doing, which is very important to 
the rights holders, is we are bringing them together, we are 
facilitating a dialogue between them and the registries and 
registrars so they could together produce some mechanisms that 
allow us to move forward in a multistakeholder, collaborative 
way.
    Mrs. Blackburn. All right.
    My time has expired. Thank you, Mr. Chair.
    Mr. Walden. I now recognize the gentleman from New Jersey, 
Mr. Pallone, for questions.
    Mr. Pallone. Thank you, Mr. Chairman.
    Needless to say that the DOTCOM Act was the result of 
strong bipartisan work from this committee. And, of course, the 
House overwhelmingly passed the bill while both of you were in 
Buenos Aires a few weeks ago.
    So I just wanted to start with Mr. Chehade. How was the 
news received in Buenos Aires about the DOTCOM Act and its 
passing the House? If you could comment?
    Mr. Chehade. So, as I have said before and ICANN's position 
has been that we do not comment on domestic policies, because 
if we do that here, we will have to do it around the world. So 
it is not our place to do that.
    But if you would allow me, just speaking personally----
    Mr. Pallone. Absolutely.
    Mr. Chehade [continuing]. As a citizen, as an American, I 
am a great believer in the deliberative processes that have led 
us to that. I do believe that the chairman, Chairman Walden, 
has brought together many of us here, many of you, around a 
very thoughtful and helpful legislation. I think the multiple 
voices that have come together here to help us is impressive.
    So, as an individual, I must tell you I am impressed by the 
process, and I am respectful of it. And I thank the chairman 
and all of you for the hard work you have put in to bring this 
together.
    Mr. Pallone. All right. Well, thank you very much.
    Mr. Chehade, we have seen success of the multistakeholder 
approach, and we want that success to continue, obviously. And 
that is why I think it is so important to empower the Internet 
community to hold ICANN accountable in the absence of a U.S. 
Government backstop.
    And I have heard concerns about whether contractual 
obligations created through the multistakeholder process are 
being adequately enforced. And I agree with your statement--I 
know Mrs. Blackburn got into this somewhat--that ICANN is not 
the Internet content police. But I believe protections designed 
by the multistakeholder community to prevent exploiting 
children, selling drugs illegally, or intellectual property 
theft online should be enforced.
    So could you just explain a little more to the committee 
how ICANN is working to address those concerns?
    Mr. Chehade. Thank you, Mr. Pallone.
    Let me be clear. When we say terms like ``we are not the 
content police,'' it is important to know that ICANN is not a 
regulator. We administer contracts. This is the model we work 
with. If it is in the contract, we are making sure it is 
followed.
    And our contracts, as Mrs. Blackburn said, do call for our 
registries and registrars to work within the law. So if the law 
is broken in the hundreds of jurisdictions we are engaged in 
here and that is made clear, our registries and registrars, per 
our contracts with them, must comply. And they do.
    Now, when we receive complaints--and I just mentioned that 
we have processed thousands, tens of thousands of complaints--
we act upon them. We reach out to our registries and 
registrars. We let them know we have a complaint, and we make 
sure they follow what is in the contract.
    And we are doing this actively. We have, as I mentioned, 
gone from 6 people to 24 people in that department just in the 
last few years. And we will continue investing to make sure our 
job begins and stops with what is in the contract and making 
sure people comply with that.
    Mr. Pallone. All right.
    Let me ask Mr. Strickling, you have been very clear and 
consistent about the criteria NTIA will use to evaluate the 
transition, and in Buenos Aires you urged the community to stay 
focused on those criteria.
    But my question is, were NTIA's criteria reflected in the 
discussions you participated in at the ICANN 53?
    Mr. Strickling. The criteria are in front of the groups 
that are working on this throughout the discussion. If you look 
at the public comment processes that have been run, they have 
sought public comment on this.
    What we were reminding the community was that, as we go 
through this next round of public comment, first on the ICG 
combined plan, as well as with the accountability provisions, 
when they go out for public comment, we want to make sure there 
is a very clear focus in that public comment round in making 
sure that the community is providing its input and its opinion 
as to how these measures will satisfy our criteria so that we 
have the record we will need to have to be able to certify to 
this committee and to Congress overall that the plan presented 
to us meets our criteria.
    Mr. Pallone. OK. Because I have heard that the U.S. 
Government's current role in the IANA functions was described 
as largely symbolic. I am not asking you necessarily to comment 
on that, but----
    Mr. Strickling. Well, we have made clear from the start 
that the actual work we do with respect to the IANA functions 
is a clerical task, yes.
    The accountability discussion, though, emerged out of a 
larger sense that the presence of a contract between ICANN and 
the United States Government provided a certain backstop for 
ultimate accountability of ICANN.
    The community clearly believes that. And that is reflected 
in the strength of the discussions that they have been holding 
on what they want to do to make ICANN accountable when the 
United States Government is no longer there with the IANA 
contract to provide whatever perceived backstop folks thought 
exists.
    Mr. Pallone. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Walden. I now recognize the gentleman from Ohio, Mr. 
Latta, for 5 minutes, the vice chair of the committee.
    Mr. Latta. Thank you, Mr. Chairman.
    And, again, to our witnesses, thanks very much for being 
here and testifying.
    Mr. Chehade, if I could ask you the first question. In your 
testimony, you state, ``The best way to safeguard the Internet 
we all want--a free, open, secure, stable, and resilient 
Internet--is to ensure ICANN is strong, independent, and 
thriving.'' And I appreciate and agree with that viewpoint. The 
work being done by the CCWG-Accountability, or the Cross-
Community Working Group-Accountability, seems to be designed to 
ensure such an outcome.
    We have all heard a lot about the work being done to get 
ICANN ready for the IANA transition, but that is not all the 
CCWG is considering. What are some of the issues that the CCWG 
has begun to take up for Workstream 2, the ongoing changes to 
ICANN accountability beyond the transition?
    Mr. Chehade. I believe right now most of the focus of the 
community has been on Workstream 1 because there is a bit of a 
sorting process going on. All the ideas have been put on the 
table. What is listed in Workstream 2 at the moment has been 
what I would call tweaks to our accountability rather than some 
large concepts that are coming.
    Mr. Latta. So are Workstream 1 and Workstream 2 going in 
kind of a parallel course right now?
    Mr. Chehade. I think most of the work is now focused on 
Workstream 1. As ideas come in the discussion, folks may 
immediately put them into a holding pattern in Workstream 2. 
But I do think very soon, as Workstream 1 starts coming to a 
close, a lot of the energy will shift to seeing what didn't 
make it in Workstream 1 that will shift to Workstream 2 and 
what new ideas may come out of Workstream----
    Mr. Latta. Is there a timeframe on Workstream 1?
    Mr. Chehade. Yes. I think----
    Mr. Latta. And what is that, please?
    Mr. Chehade. I think most of the community members are 
telling us that sometime in the fall, in the October-November 
timeframe, they will also finish their work on Workstream 1 so 
that it merges with the ICG proposal.
    Mr. Latta. Thank you.
    Mr. Strickling, to follow up, there have been suggestions 
by the community that some of the more difficult changes to 
ICANN's bylaws be committed to in the transition but 
implemented in Workstream 2. Does this meet with NTIA's 
requirements?
    Mr. Strickling. I am not sure I have heard that. What we 
have said is whatever is part of Workstream 1 needs to be 
implemented before the contract expires.
    Now, under the DOTCOM Act, we understand we can certify to 
Congress once the bylaws have been adopted. But that doesn't 
end the contract. They have to actually implement that before 
the contract ends. And that is what we are looking at in this 
July or post-July timeframe in terms of how long it might take 
for the community to actually go ahead and implement the bylaws 
changes once they have been adopted.
    Once they are adopted, they are enforceable. But the issue 
will be, to the extent that any new structures are being 
created, such as are being proposed in, say, the naming 
proposal, they will need some time to do that. But we have made 
it clear that those have to be done before the contract 
expires.
    Mr. Latta. OK. Thank you.
    Mr. Chehade, there has been ongoing concern that the 
expansion of the generic top-level domain, the gTLD, program 
would exacerbate the existing potential for abuse of the Domain 
Name System. And this was brought into sharp focus over the 
last few months as a rather offensive domain name was 
delegated, leaving registered brands and trademarks with the 
unenviable option of paying $2,500 to reserve that offensive 
domain name or face potential predatory registration.
    Is there more than ICANN can be doing to prevent the 
exploitation or extortion of registered brands and trademarks 
as more strings are delegated? And how is ICANN learning from 
the first round of the new gTLDs?
    Mr. Chehade. I think the community has spoken, over the 
years, multiple times that they do not want to see ICANN become 
a competition authority or a price-setting body. And so the 
contracts have been set up by the community, through community 
input, including business, government, and all stakeholders, 
and we are enforcing those contracts. Those contracts today do 
not include pricing provisions that allow us to cap prices.
    Now, if we receive complaints, as we did with that 
particular top-level domain you referred to, Mr. Latta, we act 
on these complaints. We follow them. And, in this case, for 
example, we asked authorities in the country where that 
particular operator is to see if they have any guidance for us. 
We did not receive guidance that allows us to do anything at 
the moment different than what we have been doing.
    Having said that, we are watching very carefully those top-
level domain operators, especially the ones we receive 
complaints about, making sure that they are working within the 
provisions of the contract.
    Finally, if the community wishes to change what they asked 
us to enforce, the multistakeholder model allows them 
immediately to get together and to start moving a policy, 
bottom up, that will change what we are able to enforce. That 
is all we have as a tool, as a mechanism, to do our work. We 
cannot regulate; we can simply administer and enforce these 
contracts. And that we are doing.
    Mr. Latta. Well, thank you very much.
    Mr. Chairman, I see my time has expired, and I yield back.
    Mr. Walden. The gentleman yields back.
    The chair recognizes the gentleman from Illinois, one of 
the authors of the DOTCOM Act, a leader on this issue, Mr. 
Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman.
    And thank you for being here. And, yes, we are in a better 
place than we were a year ago, and it is thanks to your help 
and, obviously, Chairman Walden and the chief counsel and, 
obviously, the ranking member.
    Not only were we frustrated last year, but I have a son who 
is an Internet type of kid, so I am going to get a copy of the 
transcript where you all said nice things about me and make 
sure I show that to him so----
    Mr. Walden. You could post it on Snapchat or something.
    Mr. Shimkus. That is right. So hopefully he will like me a 
little bit better, that I am really trying to be helpful. I 
wasn't so helpful last year, in his eyes.
    I have a copy of the DOTCOM Act, and really, all we did was 
took NTIA principles, put them in the legislative language. 
That is kind of the agreement that you said you are going to 
comply with.
    We also took what ICANN was doing and the working group, 
the Cross-Community Working Group, and the Stewardship 
Transition Coordination Group and say they have work to do, we 
should see what is going on, certification, and get done.
    But extending the contracts is still a pretty big deal, 
don't you think, Mr. Strickling?
    Mr. Strickling. I am not sure what you mean by a ``big 
deal.'' I think what it demonstrates, though, is that we want 
this process to proceed in an orderly fashion----
    Mr. Shimkus. Right. And we almost have to do that by--the 
contract has to get extended to do that----
    Mr. Strickling. Right.
    Mr. Shimkus [continuing]. In a formalized process.
    Mr. Strickling. Yes.
    Mr. Shimkus. And then, also, on the review process, which 
was set up in the DOTCOM Act, there is no mandate, unless we 
pass the DOTCOM Act, of you all bringing that back towards us, 
right?
    The law says--is the whole trust-but-verify portion of what 
we have been trying to talk about for the last year, is that 
that is the forcing mechanism. I am not saying you wouldn't do 
it. But the DOTCOM Act still is, I think, pretty important to 
try to get to completion and have, if it is unchanged as it 
goes through the Senate--and however the administration then 
asks for counsel from the Department of Commerce to NTIA of 
whether the President should sign it, what would your 
recommendation be?
    Mr. Strickling. So, as long as we are clear we are speaking 
for NTIA--because the administration hasn't actually come to a 
position on this--it is NTIA's view we would recommend to the 
President to sign it.
    Mr. Shimkus. Yes. And that is what I was asking, I mean, 
what would you recommend that he do. And I appreciate that. 
Because I think it is important. I think the Senate is on 
board. We will let the leadership of the--Mr. Upton and folks 
make sure that they move those things the way they hopefully 
will get moved.
    I want to ask a question, Mr. Chehade, about the Government 
Advisory Committee and the way in which governments are 
supposed to participate in the ICANN process. Currently, there 
is no voting rights in that group. What do you think the role 
will be as we move forward?
    Mr. Chehade. If you would allow me, Mr. Chairman, I will 
start by addressing Mr. Shimkus' son, because it seems like we 
caused him some difficulty there.
    Mr. Shimkus. I cause a lot of difficulty. It was just one 
of many.
    Mr. Chehade. So I am addressing him, wherever he is, to 
thank him for your leadership.
    And I know we had a difficult beginning together, but if it 
weren't for your passion and your commitment to this, we 
wouldn't be here today. So thank you for that.
    Mr. Shimkus. Thank you. I am going to wrap that up and put 
it under the Christmas tree.
    Mr. Chehade. Now, I do want to answer you on the GAC 
question. This is an important question.
    I do believe we have achieved in the role of the Government 
Advisory Committee at ICANN today a very powerful and unique 
balance, where we have governments in an advisory role. I do 
believe that maintaining that balance is important, that any 
effort or any unintended consequence that will lead to 
governments suddenly being voting bodies at ICANN changes the 
great formula that got us here today.
    So let's keep things calm and consistent, as they have 
been. And I hope that this process will not cause, 
unintentionally, a change in the relative role of governments 
within ICANN.
    Mr. Shimkus. Great. Thank you very much.
    Mr. Chairman, I will yield back.
    Mr. Walden. The gentleman yields back. There will be DVDs 
of Mr. Chehade's comments to your son available in the lobby 
afterwards.
    We will go now to Mr. Lance for 5 minutes.
    Mr. Lance. Thank you very much, Mr. Chairman.
    And I apologize for going back and forth between two 
subcommittee hearings, and I certainly respect both witnesses.
    Mr. Chehade, I understand comments were filed yesterday 
with an ICANN working group regarding proposals for addressing 
privacy/proxy services.
    It make sense to me that there are legitimate reasons for 
the use of privacy/proxy services. However, there also must be 
a process for addressing cases where parties are hiding behind 
privacy and proxy services to engage, and perhaps engage 
repeatedly, in illegal activity harmful to the public.
    Can you please explain to me the current status of the 
privacy/proxy accreditation process?
    Mr. Chehade. Thank you.
    I want to be clear that there is no change yet. This is 
simply a typical policy development process in the ICANN 
community, and, as part of that process, some stakeholders 
suggested some changes to how our privacy policies exist today.
    Those changes are still in discussion; they are in the 
public comment phase. The fact that the community is paying 
attention and sending letters to all of you and to all of us, 
as well, is actually a perfect sign that the multistakeholder 
model works.
    In terms of the status of this particular provision, Mr. 
Lance, I think that what is clear right now is that there is 
not consensus in the community on this change. And unless there 
is consensus, it doesn't come for a recommendation to the 
community for approval, to the council called the GNSO.
    So that is where we stand today. I encourage all of us to 
ask our stakeholders and our communities to participate in the 
public comment period so we can guide this process in the best 
way possible.
    Mr. Lance. Thank you.
    Mr. Strickling, would you like to comment, sir?
    Mr. Strickling. So the United States Government hasn't 
taken a position on this issue yet. It is a difficult one 
because we need to balance the privacy interests of people who 
want to express themselves on the Internet against the interest 
people have in knowing who they do business with.
    Mr. Lance. Yes.
    Mr. Strickling. So the actual proposal that was out for 
public comment was whether or not people who are running Web 
sites to engage in business transactions--in other words, to 
take money from you--should be excluded from being able to 
stand behind privacy or proxy-type services as a way to shield 
their identity from people they are doing business with. That 
is what is out for comment.
    So even the proposal that is out there is not as broad as 
some people have feared, which is that it is to remove the 
ability of anybody who wants to perhaps express themselves in a 
way that others might not agree with, to harassment or that 
sort of thing. So I think we need to stay focused on the actual 
issue that is out for comment.
    But, as Mr. Chehade said, we are still a long ways away 
from any final judgment being developed in this. And, again, to 
the extent any judgment is rendered, it will be a 
multistakeholder consensus working through all of these issues. 
And there are strong arguments on both sides in terms of how to 
work this through. And it is a marvel to watch the community 
work their way through these very difficult issues.
    Mr. Lance. Thank you.
    As a follow-up, some concerns had been raised by various 
advocacy groups that under the new proposal those who have used 
privacy proxy settings could be the target of harassment 
online. And, of course, we are all concerned about First 
Amendment rights on the Internet as it pertains to political 
activity. As you both know, Alabama v. NAACP found that 
anonymity is important in maintaining coercion-free speech as 
it relates to controversial political activity.
    Gentlemen, what is ICANN's responsibility to protect the 
First Amendment rights of those who own domain names? And could 
you explain to the committee what safeguards you propose to put 
in place to make sure that this type of harassment does not 
occur?
    Mr. Chehade.
    Mr. Chehade. Thank you.
    The provisions to protect anonymity are in place, let's be 
very clear. So we do have proxy services that do this today. I 
think the community that is reaching out to many of us is 
concerned if change occurs. I think, as Mr. Strickling 
described very carefully the change being proposed, which, 
again, still does not have consensus, is actually very narrow 
change that is very limited to certain conditions.
    Again, for those who are concerned, we encourage 
involvement, we encourage exactly what they are doing, and I do 
believe the consensus of the community will be upheld and will 
maintain, hopefully, the proper rights for people to continue 
their free speech as well as their anonymity.
    Mr. Lance. Thank you. My time has expired.
    Thank you, Mr. Chairman.
    Mr. Walden. I thank the gentleman.
    And we will now go to Mr. Long, Missouri, for questions.
    Mr. Long. Thank you, Mr. Chairman.
    And, Mr. Strickling, if the transfer goes through, it seems 
to me we should at least ensure that we keep .mil and .gov for 
our government's exclusive, perpetual, and cost-free use. What 
do we need to do before or after the transfer to make that 
happen?
    Mr. Strickling. So thank you, Congressman, for that 
question.
    There is nothing in the transition of our stewardship which 
actually implicates .mil or .gov, and also .us, which we 
administer at the Department of Commerce. But we understand 
this is an issue of concern and so we will do whatever is 
appropriate, in consultation with the Department of Defense and 
GSA and the other agencies that have equities in this, to make 
sure that these names are protected going forward. We 
understand the importance of it.
    Today, they are not under any particular contract. These 
are legacy names that go back to the very beginning of the 
Internet. I think .mil was delegated back in 1984. That shows 
you how old it is. So there is no contract today, but there is 
a whole structure of these informal regulations within the 
Internet model that govern how----
    Mr. Long. So you think informal regulations would hold up 
through this process?
    Mr. Strickling. There is no reason why they should change, 
but we are not going to rest there. We are going to take a look 
at them and make sure that if there is a way we can strengthen 
the U.S. Government's rights to those names, we will do so.
    Mr. Long. OK. And do you have any idea how we could do 
that?
    Mr. Strickling. We will be evaluating that. Right now, 
there is a reluctance, I think, to enter into a contract for 
these names since they have been working well over the years as 
legacy names, as there are many other legacy domain names, 
particularly in the country code. So this is not an issue 
unique to these particular names.
    And the process is very clear that they can't be 
redelegated or reassigned to somebody else today without the 
approval of the current holder of the name, the Department of 
Defense or Department of Commerce. So the question is, is there 
some additional structure we could put in place to tighten that 
up even further? And that is the evaluation we will conduct 
before the transition is completed.
    Mr. Long. OK.
    Mr. Chehade, I am going to repeat myself and repeat the 
question for your benefit just to make sure that I get it out 
there right and you will have a chance to respond. You were 
doing a lot of head nodding during his response.
    Mr. Chehade. Yes.
    Mr. Long. So if the transfer goes through, it seems to me, 
we should at least ensure that we keep .mil and .gov for our 
government's exclusive, perpetual, and cost-free use. What do 
we need to do before or after the transfer to make that happen?
    Mr. Chehade. So, first, I agree wholeheartedly that we 
should make sure that these remain with their owners. There is 
no question about it. Let me clarify: Today, no one can touch 
.mil or .gov without us getting direct and clear instructions 
from the U.S. Government. No one else.
    Mr. Long. And that will be true after the transfer goes 
through? That is my question.
    Mr. Chehade. And it will be exactly the same after the 
transfer. Having said that, if, as Assistant Secretary 
Strickling said, we need to enter into any other form of 
agreement or arrangement to assure the U.S. Government of their 
ownership, we are happy to do it.
    Mr. Long. OK. Thank you.
    And staying with you, Mr. Chehade, could you give us a real 
world example of how the changes the bylaws will make the 
Internet Corporation for assigned names and numbers--ICANN we 
have been speaking about today--more responsive to the 
multistakeholder community?
    Mr. Chehade. I will give you one or two, sir. I think a 
very important one would be to make sure that our appeal 
mechanisms are strengthened and accessible to those who need to 
use them when anyone in the community feels that our work is 
not adhering to the policy set in the community.
    A second one that would be helpful would be to make sure we 
strengthen how we hold our board members, including myself, 
accountable to the community's policies that have been handed 
to us to be implemented. And there are ways to do that, and I 
hope these things are done and implemented into the bylaws, 
even before we hand Mr. Strickling our proposal. So we are 
going to be on the ready to strengthen these things as soon as 
we can.
    Mr. Long. OK. One discussion around the increasing of the 
ICANN's accountability has included the idea of recall 
provisions, the ability to remove members of the board. What is 
your opinion of that proposal?
    Mr. Chehade. I think it is a good idea.
    Mr. Long. You have one second.
    Mr. Chehade. It is a good idea.
    Mr. Long. OK. You did it in a second. I appreciate that.
    If I had any time, I would yield back, but I don't, so I 
won't.
    Mr. Walden. OK.
    We are going to go now to the gentleman from Texas, Mr. 
Olson, for questions.
    Mr. Olson. I thank the chair and my colleagues. That is a 
tough act to follow.
    Welcome to our witnesses, our panelists.
    My first questions are for you, Mr. Chehade. One proposal 
from the ICANN accountability working group is the 
``fundamental bylaws'' that include required three-fourths 
approval by the ICANN board for any changes, as well as a way 
to reject changes by the multistakeholder community? That 
sounds a lot like our Constitution, to amend it or override a 
veto. But remember, the 25th Amendment took 203 years to become 
a full amendment.
    So can you elaborate on how this process works, and do you 
think it will approve accountability? How will this thing work, 
making sure we have an accountable ICANN?
    Mr. Chehade. I believe that creating a subset of the bylaws 
that here are being called fundamental by our community is 
going to strengthen our accountability ultimately, because 
today the community feels that our board of directors, 16 
people, can get together and amend the bylaws. Yes, they have 
provisions for notice and all of that is in place. But 
sequestering or creating a certain set of bylaws is 
fundamental, and putting a much higher test for touching these 
I think makes us a stronger organization with very clear 
institutional core commitments, and I support that. I believe 
it will make us stronger.
    The question, of course, in the next few months would be to 
decide what goes into that fence. And it is important that we 
think through this clearly so that we make sure that it doesn't 
end up either crippling the organization or making us 
ineffective. But I am very supportive of the concept, and, 
frankly, I am very pleased the community is putting it forth.
    Mr. Olson. And that leads to my next question. Do you 
believe that there is a culture of accountability within the 
membership of the community to make this effective? Do they 
take this seriously? I mean, they would have to. Do you think 
they do that right now, sir?
    Mr. Chehade. Oh, yes, sir.
    Mr. Olson. Great.
    Mr. Chehade. Let me tell you, they take accountability very 
seriously in our community. I think for some of your staffers 
who visited our meetings, they can assure you this is not a 
community that lets anything go by, and we thank them for that.
    Mr. Olson. Mr. Strickling, what role will NTIA play in 
Internet governance after transition is complete?
    Mr. Strickling. We will continue to play an important role. 
At ICANN specifically, we will continue as a key member of the 
Governmental Advisory Committee through which governments 
render public policy advice to the board. We will continue to 
participate with other stakeholders on matters of importance at 
ICANN. The issue of enforcement came up earlier. That is an 
area that we will continue to pay attention to, as well as the 
other policy issues as they arise.
    So we are not going anywhere in any of this. As I said, the 
one thing that changes is that we will no longer be verifying 
changes to the root zone file. That is the clerical task we 
perform now and that is what will go away when the contract 
terminates.
    Mr. Olson. So America will have a strong process in the 
decisionmaking process going forward to ICANN. That is correct?
    Mr. Strickling. Yes.
    Mr. Olson. OK. Good to hear.
    Another question for you, Mr. Chehade. With the current 
process of assigning gTLDs and generic Top-Level Domain, do you 
expect this process to change with this transition? If yes, how 
so?
    Mr. Chehade. The only thing that this transition will do to 
affect that process is very minor, and that is, after the 
process is finished and a new top-level domain needs to be 
delegated, which is the word for putting it into the root of 
the domain name system, today that process involves NTIA.
    So it is the very end of a long process that takes years. 
There is a final function to simply add it. And it is that NTIA 
transition bit of the process that will change. Everything else 
before that, that qualifies people, brings them on board, 
ensures they serve the community, ensures they adhere to their 
contracts, unchanged.
    Mr. Olson. Unchanged.
    Final question for you, sir. There has been talk about 
outstanding applications of TLDs, that domain, outstanding 
applications. Is there a plan on how to proceed? I have heard 
some problems with outstanding applications for TLDs, top-level 
domain names. Looks like I have got you confused.
    Mr. Strickling. I am not sure exactly what you are 
referring to. But I will say this about the controversies about 
the addition of top-level domains, which is that it is a big 
program. They have added over 600 new top-level domains so far.
    Mr. Olson. But applications like .med and .cpa. Does that 
clarify things? Yes, I am sorry. That is my fault.
    Mr. Chehade. I apologize, Mr. Olson. Now I understand what 
you meant.
    Mr. Olson. No, no. That is my fault, sir. Don't apologize.
    Mr. Chehade. So, yes, very important. For example, the .cpa 
addition, which is very important, and I think will serve the 
community of certified public accountants, we are now going 
through a process to decide if one of those applications, 
because there were multiple applicants, is what we call a 
community application. And community applications at ICANN 
receive different criteria in the way we work with them.
    When that process ends, and I hope it ends soon, if AICPA 
is selected as a community applicant, then they will have 
certain rights to move forward with, with their contract. If 
not, they will still be able to continue, but they will need to 
then compete with other applicants.
    Mr. Olson. Sorry for the curve ball.
    I yield back.
    Mr. Walden. Gentleman yields back.
    I recognize the gentleman from Florida now, Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it.
    Like many of my colleagues, one of my greatest concerns 
with the transition is the susceptibility of ICANN to 
manipulate or be captured by foreign governments. You both 
assert in your written testimony that this is a concern you are 
working to safeguard.
    Mr. Strickling, what specific concerns remain after your 
latest meeting about encroachment from the intergovernmental 
body like the U.N., and how would you evaluate the proposals 
being considered by ICANN? And then I have a couple more 
questions too.
    Mr. Strickling. So this is a very important issue, and it 
is one of our key criteria, to ensure that as we step out of 
our stewardship role that we are not replaced by another 
government or group of governments.
    I have to tell you, there is nothing in the planning that 
we have seen so far that indicates this is a likely or even 
possible outcome. The current board structure does not allow 
governments to sit on the board. The government advisory 
committee's role is limited to providing advice to the board. 
There haven't been any proposals to change that. Indeed, the 
proposals that are being discussed right now would actually 
make it clearer exactly under what conditions the governments 
can provide advice that the board would have to follow.
    So I think all signs are that the end of this process will 
yield a result that will satisfy that criteria, but I don't 
have the final plan yet, I don't have the final proposal, and 
we will need to see that before we can render a comprehensive 
conclusion on that score.
    Mr. Bilirakis. Mr. Chehade, what are your thoughts? I am 
sorry if I mispronounce. I just came in. I was in another 
meeting. I apologize.
    Mr. Chehade. No, no. I think we probably both suffer from 
that, so it is OK.
    Let me be clear: Governments today have an advisory role at 
ICANN. No government can sit on our board of directors. They do 
not have a voting mechanism. We hope this will be maintained as 
we move forward.
    I must tell you also that the process that the U.S. 
Government started here to make the transition move forward has 
become itself an attraction to many others, including 
governments who did not believe or understand how the 
multistakeholder model works.
    So I think we are seeing governments participate in the 
process in their advisory capacity and continue to do so in 
more numbers than we did before. And we thank them for that, 
and we believe they should continue in their advisory role. So 
we are seeing, as Mr. Strickling said very clearly, we are 
seeing no signs at the moment of any government asking for new 
or different powers, and I hope we maintain that balance moving 
forward.
    Mr. Bilirakis. Thank you.
    Another question for you, sir. Two months ago we heard from 
Matthew Shears from the Center for Democracy and Technology, 
who mentioned a hybrid proposal of separating functions and 
oversight to ensure accountability. He concluded by saying this 
can work if ICANN is held accountable to its own internal 
governance structures and stressed the multistakeholder 
community needs to be more empowered than it is today for it 
all to work.
    Again, can you address his argument and speak on if the 
multistakeholder community is more empowered after the latest 
proposals and meetings? And I know you have touched on the 
recall procedures, I have heard, and is it true? Anything else?
    Mr. Chehade. What is left is, for me, right now the only 
decisions I can make is to pick the coffee in my office. So if 
they take that away, they pretty much have every decision that 
happens at ICANN. And that is how it should be. That is how 
ICANN is designed.
    Can we strengthen that? Yes, and we should. How do we do 
that? By making sure that policy is always started in the 
community and actually goes through a community process before 
it gets to us, and that if the board, with its power, at any 
time does not follow community policy, or the board changes 
community policy, that the community has a recourse to be able 
to get the board to actually perform what they are supposed to 
do, which is the community policy.
    So I support strengthening that and doing everything 
possible we do, but I must assure you that today our community 
is firmly rooted in the decisionmaking of policies that affect 
the domain name system of the Internet. So are the communities 
that give us the other policies, such as the IETF for critical 
parameters and the Regional Internet Registries for numbers. 
They are the communities that are empowered to make the 
policies for their important identifiers. We simply are here to 
facilitate, coordinate, not decide or change community 
policies.
    Mr. Bilirakis. Thank you.
    Thank you. I yield back, Mr. Chairman. Appreciate it.
    Mr. Walden. The gentleman yields back the balance of his 
time.
    The chair now recognizes the gentleman from Ohio, Mr. 
Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Walden. I am sorry. Mr. Johnson, I am sorry. Mr. 
Guthrie had returned.
    Mr. Guthrie. I will be here. I will let him go ahead.
    Mr. Walden. All right. If you two work it out, I will go 
back to Mr. Johnson. Sorry about that.
    Mr. Johnson. OK. Well, thank you, Mr. Chairman. And I thank 
my colleague for yielding.
    Mr. Strickling, last year members of the committee sent a 
letter to GAO requesting a nonpartisan review of the transition 
and subsequent report, which is expected sometime later this 
summer. Do you intend to take this report into account when 
evaluating the proposal?
    Mr. Strickling. Assuming we get it in a timeframe that is 
relevant, yes.
    Mr. Johnson. If we get it this summer, is that going to be 
within the timeframe?
    Mr. Strickling. Then I do believe we will be able to take 
their learnings and advice and incorporate them in our review, 
yes.
    Mr. Johnson. OK.
    Mr. Chehade, one proposal from the ICANN Accountability 
Working Group is to make changes to the ICANN mission statement 
to enumerate and restrict the authority of ICANN. Can you 
elaborate on how you think this will help improve 
accountability?
    Mr. Chehade. I first will just preface by saying there are 
many, many proposals. We are in the early stage of people 
proposing a lot of changes to our bylaws and to our operations. 
So I don't want to specifically speak about any one particular 
proposal, lest the community think, frankly, we are rendering 
opinion on their work. We want them to give us at the end of 
the day--and they are working very hard, next week they have a 
big meeting again on that--they are going to give us a list of 
things, including changes to our mission and our bylaws. We are 
going to wait to see all of this to support their efforts to 
strengthen our accountability.
    However, if I could say to everyone watching this closely, 
it is equally important to make sure that we don't 
unintentionally introduce things that destabilize what we have 
been working on for over 16 years. So while we should always 
strengthen accountability, we should strengthen our mission, we 
should stay very focused in our mission, we should not in any 
way increase our remit. We have a very specific remit and a 
very, very careful balance with our partners, the IETF and the 
Regional Internet Registries. We must maintain that, keep our 
roles where they are.
    So looking forward to see what the community will come back 
with and committed, sir, committed to improve our 
accountability, but not at the expense of stability.
    Mr. Johnson. Well, in light of that then, are there more 
effective ways of achieving the goal of better accountability 
in your mind?
    Mr. Chehade. No. I do think the community is right now 
debating the right ideas. There are just many of them on the 
table, and I think the process is not yet at the point where we 
are out of the tunnel. We are still in the sausage-making phase 
of watching how the community's ideas are being put on the 
table.
    So I think in the next 4 or 5 weeks we are going to get 
more clarity, and we leave it to the community, we are not 
influencing the process. I am not even participating at the 
meetings. Our board members, when they do, they do it as 
individuals who are contributing, not as a board. So we are 
letting the community lead, and that is how it should be.
    Mr. Johnson. OK. All right.
    Mr. Strickling, you have stated that NTIA will not permit a 
government-led organization or an intergovernmental 
organization from overseeing the IANA functions. How would the 
proposed changes prevent the IANA functions from being 
transferred to an intergovernmental organization in the future?
    Mr. Strickling. The proposals that are being considered by 
the community themselves make it very clear that these 
functions will remain at ICANN. There has been no proposal to 
move them anywhere else. And when you look at the makeup of the 
board, when you look at what is being proposed in terms of new 
bylaw changes, it will assuredly prevent a government from 
stepping in and taking over any of the roles at ICANN based on 
where the community is at and the provisions of the bylaws that 
will come out of this process.
    So I think on that we are pretty confident that will be the 
outcome of the plan that is submitted to us. But, again, I have 
to put the caveat in that we haven't seen a formal proposal, 
and I really want to reserve final judgment until we have a 
plan to officially comment on.
    Mr. Johnson. OK. Well, thank you.
    Mr. Chairman, I yield back the 24 seconds I have.
    Mr. Walden. Thank you. The gentleman yields back.
    We will now recognize the gentleman from Kentucky, Mr. 
Guthrie.
    Mr. Guthrie. Hey, thank you very much.
    And my questions are for Mr. Chehade.
    But before I get started, Secretary Strickling, thanks for 
all the work. We worked on spectrum together, different things 
together, and I have always enjoyed working with you.
    And I actually have a sheet of acronyms if anybody needs 
any, because I was in the military and I thought they had 
acronyms. So I am going to read through them, and if you need 
me to clarify anything, I will let you know.
    Mr. Chehade, the CCWG-Accountability and the ICG have both 
recently sent letters to the NTIA indicating that it will take 
until next summer to make the changes necessary to transition 
to IANA. Can you elaborate on the time line that you are 
envisioning for the transition process?
    Mr. Chehade. Thank you.
    I think that there will be three phases ahead of us. The 
phase we are in now is the community's phase to finish the 
proposals. The ICG and the CCWG need to finish their proposals 
and hand them to the U.S. Government. As Mr. Strickling said 
earlier, what we are hearing from the community is that this 
will take place in early November.
    The next phase after that is the phase Mr. Strickling 
described carefully as to what the U.S. Government will do with 
those proposals once received. And if the DOTCOM Act becomes 
law, then it is within that period that all of us, including 
the Department of Commerce and Congress, should have all the 
time we need to look at these proposals carefully and assess 
them.
    Our estimate from listening to the community is that that 
phase will last 4 to 5 months total, in total lapsed time. So 
that leaves us with one last phase, as Mr. Strickling 
described, and that is implementing whatever has not yet been 
implemented in order for the contract to lapse. That last phase 
right now we are estimating will end sometime between July and 
September of 2016. And, again, all these dates are up to the 
community. They are flexible.
    Mr. Guthrie. Well, thank you.
    And another question. ICANN's board chose to suspend 
Amazon's application for the .amazon gTLD, generic Top-Level 
Domain, .amazon, after governments objected. What is the 
current status of Amazon's application? And what can be done to 
ensure Amazon's legitimate use of that space?
    Mr. Chehade. The company Amazon is a great partner of 
ICANN, and they are going to be holding tens of new top-level 
domains, and we are working very closely with them on a much 
broader agenda of things. So we are very close to them, and we 
work very closely on the issue of .amazon.
    Specifically there, the board has for now put that 
application aside. What we have been doing lately is 
facilitating a dialogue between the company and those who have 
objected to that TLD, and that is the role ICANN should play. 
We should not be directing. We should not be involved in these 
discussions. We should use our good offices to facilitate 
dialogue between different parties, and that dialogue is going 
as we speak.
    Mr. Guthrie. Thanks. And it is important to us, all this 
happens in the Internet world or whatever, but there are good, 
hard-working Kentuckians in Campbellsville, Kentucky, shipping 
the stuff out that goes through Amazon. So we want to make sure 
that that company is successful, continues to be as successful 
as it is.
    And the final, the Accountability Working Group has 
proposed several mechanisms intended to improve the 
accountability of ICANN to the multistakeholder community. Can 
you elaborate on some of the key proposals and how they will 
operate.
    Mr. Chehade. Yes. I do believe the proposals relating to 
strengthening the appeals mechanisms at ICANN are important. 
The proposals pertaining to ensuring that either individual 
board members or the board can be recalled under certain 
conditions that would give the community the strength and the 
belief that board members are accountable to the community's 
policies, these are important proposals.
    And we believe that the combination of these and the 
fundamental bylaws, which we discussed at length today, the 
idea that some of our bylaws can be enshrined in a certain part 
of our governing documents and with higher tests to touch them, 
to change them, I think these things are very fundamental. And 
we thank, frankly, our community for the work they are doing to 
understand proposals like these and how we can put them in 
place.
    Mr. Guthrie. Thank you very much. I appreciate your answer.
    I appreciate working with you, Secretary Strickling.
    I yield back.
    Mr. Walden. Gentleman yields back the balance of his time.
    And our last participant today, who has been here 
throughout, but not least, the gentlelady from North Carolina, 
Mrs. Ellmers.
    Mrs. Ellmers. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here. And I apologize 
for being here, leaving, coming back, dueling subcommittee 
hearings today.
    And so, if I ask a question that you have already responded 
to, please indulge me so that we can get to the bottom of this 
issue.
    Mr. Strickling, I am going to start with you. In your 
testimony, you state that you believe ICANN has made 
``significant progress in fulfilling the commitments 
established by the affirmation.'' Can you tell us more about 
the accountability and transparency reviews--I know that has 
already been addressed--that were conducted by the review teams 
as part of the process?
    Mr. Strickling. Yes. So accountability and transparency has 
long been on the agenda at ICANN. It even predates the 
affirmation of commitments that we signed in 2009 with ICANN. 
As part of the affirmation, on a 3-year cycle, ICANN has 
organized stakeholder groups to perform a review of the 
accountability and transparency organization.
    I have personally participated in the first two of those 
teams in 2010 and again in 2013. A lot of this is now being 
dwarfed by a much broader multistakeholder process that we have 
been talking about today, the Working Group on Accountability, 
related to the IANA transition. But the work of the first two 
accountability teams went through issues like board selection, 
issues of how does the board respond to advice from the 
Governmental Advisory Committee. We looked at the appeals 
mechanisms that were in place at that point in time that are 
now being reevaluated yet again as part of this review related 
to the transition.
    Out of the first review, I think there were 29 
recommendations. ICANN, the board, agreed to implement all of 
them. Out of the second review--I can't remember the exact 
number of recommendations--again, the board agreed to implement 
all of them and is in various stages of completing that work.
    So this has been a long-term process at ICANN. And while we 
know that improvement can always be made, and we are seeing 
that coming out of the Accountability Working Group that is at 
work today, I would tell you that this organization still is 
about as accountable a group as any I have ever worked with. It 
is setting the standard for that. And we look forward to the 
improvements that will emerge out of the current process, 
because I think that will leave ICANN an even stronger 
organization and one that is even much more directly 
accountable to its stakeholder community than it is today.
    Mrs. Ellmers. Thank you.
    And, Mr. Chehade, I want to give you a chance to respond to 
that as well. I do want to ask, as the debate continues for 
CCWG. The continuing debate that is going on is the independent 
review board, the IRB. Essentially, this is the structure that 
acts as the judicial branch of ICANN. Would you sum it up that 
way?
    Mr. Chehade. Yes, that is true. And that process has been 
tested a couple of times. We need to make sure that that 
process answers the community's need for independent review, 
and we need to strengthen that process. I believe there is room 
to continue strengthening that process.
    And I would, frankly, second everything Assistant Secretary 
said about our commitment to accountability. I recently met 
with one of the, frankly, top academics in the U.S. on 
corporate governance, and he quizzed us quite hard. And at the 
end of this he said, ``You are more accountable than 95 percent 
of American corporations.''
    And my answer, frankly, was, ``That is not good enough. We 
need to work harder.'' Because we have a public mission in the 
public interest and therefore we have to answer to a higher 
mission even than most corporations. So we will continue 
strengthening that.
    But I want to also leave you with the impression Mr. 
Strickling did that ICANN is actually a very, very accountable 
firm. I have worked for IBM, for AT&T, for many companies, and 
I can tell you ICANN is in a great position, and we are seeking 
to further improve it.
    Mrs. Ellmers. Just summing up what you said in my 40 
seconds left, basically, the goals that remain or the issues 
that are still playing out are issues in regard to 
strengthening ICANN----
    Mr. Chehade. Yes, absolutely.
    Mrs. Ellmers [continuing]. In its present form and moving 
forward.
    Mr. Chehade. Absolutely. And we welcome them.
    Mrs. Ellmers. Great. Thank you both so much for being here 
today with us.
    Mr. Walden. I want to thank both of our witnesses for your 
exemplary testimony and answering our questions and the good 
work that you are doing to address the concerns that I think 
you have heard expressed here.
    I want to thank our members for their active participation 
in the hearing.
    And with that, we stand adjourned.
    [Whereupon, at 11:44 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                Prepared statement of Hon. Steve Scalise

    Since the National Telecommunications and Information 
Administration (NTIA) announced its intention to transition the 
U.S. government's role in the Internet's numbering functions to 
the multistakeholder Internet community, I have remained 
concerned whether this transition was in the best interest of 
the Internet and whether the global community was capable of 
taking on this responsibility.
    No one can argue with the success of the Internet since its 
inception, and this is due to the United States' commitment to 
innovation and Internet freedom. My concern has been that 
changing the Internet's governance structure could jeopardize 
these two ideals, especially if enemies of Internet freedom and 
bad actors in the international community have more control 
over its management.
    Much work has been done by NTIA, the Internet Corporation 
for Assigned Names and Numbers (ICANN), and the global Internet 
community to develop a plan for transitioning the Internet 
Assigned Numbers Authority (IANA) function. It appears that 
ICANN and the global community are making progress in 
developing a plan.
    However, progress does not guarantee a successful outcome. 
And given the importance of the Internet, anything short of a 
successful outcome is unacceptable. I remained concerned about 
the transition and NTIA's commitment to the criteria it 
outlined to assess any potential transition proposal.
    As has been repeatedly stated, ICANN must improve its 
transparency and accountability. This will give all 
stakeholders greater confidence in ICANN's ability to manage 
these important functions, as well as its ability to remain 
free of undue influence by a foreign government or any portion 
of the multistakeholder system.
    NTIA has repeatedly expressed its commitment to the 
criteria it outlined in March 2014, and my hope is that this 
commitment remains strong until the transition is complete. I 
am pleased that Administrator Strickland has stated that NTIA 
will renew the current contract.
    My hope is that any future decision to renew the contract 
or complete the transition is based on the existing NTIA 
criteria and the U.S.' strong commitment to Internet freedom, 
not on inevitability or political expediency. I caution 
Administrator Strickland against completing the transition just 
because a new administration will take over in January 2017, 
and I hope this is not a factor.
    Completing the privatization of the Internet domain name 
system must be done carefully and must be done only if Internet 
freedom remains strong.
                              ----------                              


                                 [all]
</pre></body></html>
